No. 19-1074
IN THE

~upreme Qtourt of tbe mtntteb ~tates
CELGENE CORPORATION,

Petitioner,

V.

LAURA A. PETER, DEPUTY UNDER SECRETARY
OF COMMERCE FOR INTELLECTUAL PROPERTY
AND DEPUTY DIRECTOR OF THE U.S.
PATENT AND TRADEMARK OFFICE,

Respondent.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this

Corut, I certify that the Reply for Petitioner in Celgene Corporation v. Peter, Nu.
19-107 4, was served via electronic mail on all parties required:
Noel Francisco
SOLICITOR GENERAL
U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Room 5616
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Thomas W. Krause
Amy J. Nelson
Meredith Hope Schoenfeld
OFFICE OF THE SOLICITOR
U.S. PATENT AND TRADEMARK OFFICE
PO Box 1450
Mail Stop 8
Alexandria, VA 22313
(571) 272-9035
thomas.krause@uspto.gov
amy.nelson@uspto.gov
meredith.schoenfeld@uspto.gov

Counsel for Respondent
I declare under penalty of perjury that the foregoing is true and correct.

Date: May 15, 2020

Robert N. Stand.er

